<html>
<title> - ACCESS TO JUSTICE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                           ACCESS TO JUSTICE

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China










<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





         Available via the World Wide Web: http://www.cecc.gov


                  U.S. GOVERNMENT PRINTING OFFICE
70-936 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



House                                Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)




                           Access to Justice

                                Findings

        <bullet> Chinese citizens' ability to redress perceived 
        wrongs continued to face significant challenges during 
        the Commission's 2011 reporting year. Authorities 
        continued to promote a ``harmonious'' socialist society 
        with Chinese characteristics. Key policies and 
        regulations during the past year reflect the Party's 
        ongoing concern with ``maintaining social stability.''
        <bullet> The courts encouraged the use of mediation 
        over trials as means to resolve disputes in civil 
        cases. Critics point out that mediation could lead to 
        curtailed access to courts for Chinese citizens. In 
        addition, it remains unclear whether the new PRC 
        People's Mediation Law can adequately resolve disputes 
        without coercion, and whether it can provide for 
        effective enforcement of mediated agreements.
        <bullet> Citizen petitioners seeking to address their 
        grievances continued to face official reprisals, 
        harassment, violence, and detention, especially by 
        local governments due to incentive structures linked to 
        citizen petitioning.
        <bullet> Officials at various levels of government 
        continued to discourage, intimidate, and detain human 
        rights lawyers and defenders who take on issues, cases, 
        and clients that officials deem to be ``sensitive.'' 
        Officials employed a spectrum of measures including 
        stationing police to monitor the homes of rights 
        defenders, forcing rights defenders to travel to 
        unknown areas or to attend meetings to ``drink tea'' 
        with security personnel, and imprisonment.
        <bullet> The Supreme People's Court announced in May 
        2011 that it would issue uniform guidelines for some 
        types of cases. The guiding cases are meant to provide 
        uniformity in decisionmaking for the public security 
        apparatus, procuratoracy, and the courts. One of the 
        key questions that remains unanswered is the degree to 
        which the guiding cases are binding on lower courts.
        <bullet> The Chinese government continued to promote 
        administrative law reforms that seek to provide greater 
        oversight of state agencies and government employees 
        and to protect citizen interests if they are faithfully 
        implemented and executed. The amended PRC 
        Administrative Supervision Law became effective in June 
        2011. Its key provisions provide some protection for 
        whistleblowers. The amended PRC State Compensation Law 
        became effective in December 2010. Its key provisions 
        expand the scope of the law by allowing negligence as a 
        cause of action against the government under some 
        circumstances. In addition, the amended law eliminates 
        certain procedural loopholes making it easier to 
        establish a valid claim.
        <bullet> Chinese citizens remained reluctant to bring 
        cases against government officials utilizing 
        administrative law provisions. Cases brought against 
        the government based on administrative law provisions 
        reportedly accounted on average for very low 
        percentages of local courts' total workloads.
        <bullet> The government increased funding for the legal 
        aid system during the 2011 reporting year. 
        Nevertheless, China faces a systemic shortage of 
        defense lawyers. In underdeveloped regions, some 
        criminal defendants may have no access to legal 
        representation.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support the U.S. State Department's International 
        Visitor's Leadership Program and other bilateral 
        exchange programs that bring Chinese human rights 
        lawyers, advocates, and scholars to the United States 
        for study and dialogue. Support similar programs in the 
        non-governmental organization and academic sectors that 
        partner with China's human rights lawyers and nonprofit 
        legal organizations.
        <all> Continue to monitor the policy of mediation as 
        the Chinese government's preferred way to resolve 
        disputes. Achieve a clear understanding of the 
        implications on Chinese citizens' access to justice and 
        the Chinese government's compliance with international 
        standards.
        <all> Continue to monitor the anticipated issuance of 
        the guiding cases by the Supreme People's Court for the 
        public security apparatus, procuratoracy, and the 
        courts. Pay particular attention to their effect, if 
        any, on lower level courts.
        <all> Express concern to Chinese authorities over 
        treatment of petitioners and encourage Chinese leaders 
        to examine the incentive structures at the local level 
        that lead to abuse of petitioners who seek to express 
        their grievances.
        <all> Object to the continued harassment of human 
        rights lawyers and advocates. Call for the release of 
        lawyers and activists who have been subject to unlawful 
        home confinement, ``disappearance,'' or harassment by 
        officials for their activities to defend and promote 
        the rights of Chinese citizens.
        <all> Support exchange, education, and training in 
        legal aid expertise with Chinese defense lawyers and 
        law schools.

                              Introduction

    Chinese citizens' ability to seek redress against 
government actions that violate their legal rights has changed 
significantly over the past 30 years. More than 200 laws have 
been enacted,\1\ but citizens continue to face significant 
obstacles to accessing justice. Article 8 of the Universal 
Declaration of Human Rights states that ``[e]veryone has the 
right to an effective remedy by the competent national 
tribunals for acts violating the fundamental rights granted him 
by the constitution or by law.'' \2\ Article 2 of the 
International Covenant on Civil and Political Rights (ICCPR) 
requires states to ensure that persons whose rights or freedoms 
are violated ``have an effective remedy, notwithstanding that 
the violation has been committed by persons acting in an 
official capacity.'' \3\
    During the Commission's 2011 reporting period, key policies 
and regulations relating to access to justice reflected the 
Communist Party's ongoing concern with maintaining stability. 
Authorities emphasized the use of mediation over trials in 
civil cases and promoted mediation as the solution to social 
unrest. At the same time, authorities sought to enact measures 
that could curb corruption and lead to greater professionalism 
within the courts. Authorities' concern with maintaining 
stability extended to citizen petitioning, an area beset with 
well-documented human rights violations such as arbitrary 
detention. During this reporting year, Chinese media exposed a 
``stability maintenance'' organization tasked by some local 
governments with retrieving petitioners from Beijing, a 
practice that often led to abuse of petitioners. In addition, 
petitioner cases involving land disputes continued as a trend 
as officials sought to develop more rural land.
    Against the backdrop of the Nobel Peace Prize being awarded 
to China's prominent imprisoned intellectual and writer Liu 
Xiaobo in October 2010, and amidst the online ``Jasmine'' call 
for reform domestically, the government enforced measures that 
further restricted human rights lawyers' advocacy efforts. 
Officials at various levels of the government continued to take 
steps to discourage, intimidate, and detain human rights 
lawyers and defenders who take on issues, cases, and clients 
that officials deem to be ``sensitive.'' In spite of apparent 
efforts to train more legal aid representatives, measurable 
positive effects in citizens' access to justice remain elusive.

         Mediation as a Vehicle To Maintaining Social Stability

    During the 2011 reporting year, government and party 
officials continued to use courts as a tool in their efforts to 
maintain social stability. In particular, the Supreme People's 
Court encouraged the use of mediation over trials as means to 
resolve disputes in civil cases.\4\ The PRC People's Mediation 
Law became effective in January 2011,\5\ and stresses the need 
to resolve civil disputes through mediation and to maintain 
social harmony and stability.\6\ It encourages disagreeing 
parties to reach a voluntary resolution through people's 
mediation committees.\7\ Furthermore, the mediation services 
are free of charge and legally binding on the parties.\8\ To 
further strengthen enforcement efforts, in July 2010, 
authorities issued a joint opinion involving multiple agencies 
in an effort to improve enforcement of legally binding 
decrees.\9\ The joint opinion establishes general policy 
provisions for each agency and allows the courts to coordinate 
among agencies.\10\ Since passage of the PRC People's Mediation 
Law, authorities have actively promoted it as the ``first line 
of defence [sic]'' \11\ against mass conflicts. In January 
2011, the Supreme People's Court further emphasized the 
importance of mediation to all basic-level people's courts by 
stressing the need to uphold the principle of ``mediation 
first, then integrate mediation and adjudication.'' \12\
    Authorities also praised the national model judge for 2010, 
who resolved more than 3,100 cases in 14 years ``all without a 
single mistake, appeal, or citizen petitioning [against her 
decisions].'' \13\ Judge Chen explained that one of her key 
work principles is to prioritize mediation over litigation, 
especially in cases involving neighborhood disputes and marital 
discord.\14\
    In spite of the push for mediation, the broader 
implications of the law remain unclear. While mediation is an 
effective tool in some types of cases, concerns about mediation 
center on three main issues: Curtailed access to courts for 
Chinese citizens, adequate resolution of disputes without 
coercion, and effective enforcement.\15\ A particular concern 
is the potential use of the PRC People's Mediation Law to 
pressure and silence human rights activists. For example, in 
June 2011, public security officials reportedly approached 
members of the Tiananmen Mothers, a non-governmental 
organization that seeks public discussion and accountability 
for people killed during the 1989 Tiananmen protests. The 
officials reportedly offered to pay compensation to settle 
individual cases.\16\ The terms of the settlement, however, did 
not include public discussions about the 1989 Tiananmen 
protests, investigations, or accountability--objectives that 
the Tiananmen Mothers aim to achieve.\17\ To further promote 
mediating disputes over trial work, the government and the 
Party reportedly have mandatory mediation quotas, offer 
financial rewards and career advancements to judges who have 
high rates of mediation, and punish judges who issue decisions 
that result in citizen petitioning.\18\ This approach can lead 
some judges to engage in unfair settlement tactics that could 
``detract from the substantive fairness of the process and 
undermines the legitimacy of the court system.'' \19\ Survey 
data also suggests that the enforcement of mediated agreements 
remains weak.\20\

                 Efforts To Professionalize the Courts

    During this reporting year, the Supreme People's Court 
sought to professionalize courts by issuing codes of conduct, 
recusal regulations, and guiding cases. In December 2010, the 
Supreme People's Court issued two documents concerning judges' 
conduct: The Model Judicial Behavior Code \21\ and the Basic 
Code of Professional Conduct for Judges.\22\ The two documents 
seek to guide judges in their judicial work and conduct outside 
of work,\23\ set forth five principles of loyalties for 
judges,\24\ and stress allegiance and loyalty to the Party.\25\ 
In early 2011, the Supreme People's Court issued two 
regulations intended to limit improper influence on the courts. 
The Trial Implementation of the Provisions Regarding 
Professional Avoidance of Trial Judges and Court Leadership 
When a Spouse or Child Practices as a Lawyer \26\ (``Trial 
Implementation Provisions'') requires the court officials and 
some trial judges to recuse themselves in some professional 
settings when a spouse or child practices as a lawyer in the 
jurisdiction they oversee. The Provisions Regarding the 
Prevention of Interference With Casework by Internal Court 
Personnel \27\ prohibit current and retired court personnel 
from conducting private meetings with parties, as well as their 
relatives and legal representatives, whose cases are being 
adjudicated by the court. The provisions also prohibit current 
and retired court personnel from forwarding documents, 
inquiring, or interceding on behalf of the parties.\28\ The 
efficacy of these regulations remains unclear. For example, the 
Trial Implementation Provisions do not include limitations on 
the procuratorate, public security personnel, or anyone else 
who shares a close relationship with the parties or the court.
    Authorities also sought to limit the lower courts' ability 
to request instructions from higher level courts when 
adjudicating cases. This practice occurs when lower level 
courts seek to avoid responsibility or are unwilling to decide 
a case based on the facts and law as presented. The Opinion 
Concerning the Standardization of Trial Work Between Higher 
Level and Lower Level Courts,\29\ issued in December 2010, is 
the latest in a series of efforts by the central government to 
address this practice. Key provisions in the opinion limit the 
types of cases where instructions can be sought and prohibits 
``in principle'' the court of second instance from remanding a 
case based on unclear facts and insufficient evidence, when the 
court of first instance has fully investigated the facts.\30\
    The Supreme People's Court issued the long-awaited 
Regulations Regarding Guiding Cases in November 2010, which 
could lead to greater uniformity in the handling of cases.\31\ 
The regulations announced that the Supreme People's Court will 
publish uniform guidelines for some cases that have generated 
broad societal interest; where the regulation is general; where 
cases are representative of other cases similarly situated; or 
where cases are particularly complex, difficult or novel, or 
otherwise have guiding value.\32\ The Supreme People's Court 
(SPC) reportedly was selecting its first series of guiding 
cases in May 2011.\33\ In addition, according to the director 
of the SPC research department, the guiding cases will 
eventually include three series covering public security, the 
procuratorate, and the courts.\34\ One of the key questions 
that remains unanswered is the degree to which the guiding 
cases are binding on lower courts.\35\
    In September 2010, the Supreme People's Court issued 
sentencing guidelines on a trial basis that could improve 
transparency, uniformity, and fairness in sentencing criminal 
defendants.\36\ The key provisions of the guidelines provide 
baseline sentences for 15 of the most commonly encountered 
crimes such as traffic offenses, battery, rape, robbery, 
larceny, fraud, and drug offenses, among others, and establish 
sentencing factors in aggravation and in mitigation.\37\ If 
implemented at the local level, the guidelines could 
potentially promote greater transparency and consistency in 
sentencing by limiting individual discretion of judges.

                    Corruption Within the Judiciary

    Corruption within the judiciary has been a longstanding 
problem.\38\ The extent and scope of corruption are unclear due 
to a lack of independent data. According to official sources, 
from January to November 2010, the government ``investigated 
119,000 graft cases, resulting in 113,000 people being 
punished, of whom 4,332 were prosecuted . . . .'' \39\ In 
addition, a report published by the Supreme People's Court in 
February 2011 singled out 187 people within the judicial system 
for improper conduct, ranging from private use of public 
property to charging inflated fees in 2010.\40\ Anecdotal but 
numerous incidents of corruption reported in the media involved 
judges extorting money from litigants,\41\ engaging in 
collusion,\42\ and accepting bribes.\43\
    During this reporting year, key policies continued to 
reflect the authorities' ongoing efforts to root out corruption 
within the judiciary,\44\ and within the confines of the 
existing political structure where the courts are subject to 
the control of the Party.\45\ The current approach to combat 
judicial corruption appears to particularly emphasize the role 
of state supervision.\46\ In October 2010, the Supreme People's 
Court announced it would gradually undertake tours of 
inspection of local-level courts where one of the main purposes 
is to investigate the lower level courts' ability to handle 
matters diligently and free from corruption.\47\ In addition, 
the authorities continued to promote the policy of ``Five 
Prohibitions'' first promulgated in 2009.\48\ The ``Five 
Prohibitions'' policy proscribes judges from engaging in 
improper conduct such as accepting gifts, interceding on behalf 
of another party, divulging work secrets, and engaging in 
favoritism.\49\ The courts have also instituted an online forum 
where citizens can report on corrupt judges and monitor the 
progress of whistleblowing tips.\50\ The efficacy of the online 
forum remains unclear.

                           Administrative Law

    Administrative law provides channels for citizens to seek 
limited remedy when they believe the government has violated 
their rights. Because Chinese courts do not have the power 
either to apply constitutional provisions or to strike down 
laws or regulations that are inconsistent with China's 
Constitution,\51\ administrative laws serve as a tool to allow 
citizens to express grievances, challenge alleged official 
wrongdoing, and impose constraints on official misconduct. 
Overall, Chinese citizens today have more options for redress 
against government violations than they did 20 years ago, when 
the field of administrative law first began to develop. In 
spite of these developments, the administrative law system 
still faces fundamental institutional challenges. For example, 
Chinese citizens cannot challenge administrative regulations 
that violate constitutional or legal rights. Article 12 of the 
PRC Administrative Procedure Law forbids courts from accepting 
citizen challenges of administrative rules and regulations that 
have ``general binding force.'' \52\ In addition, the PRC 
Administrative Reconsideration Law does not allow adjudication 
of State Council rules or regulations.\53\ During this 
reporting period, the Chinese government continued to promote 
administrative law reforms that seek to provide greater 
oversight of state agencies and government employees and to 
protect citizens' interests. In June 2010, the amended PRC 
Administrative Supervision Law became effective.\54\ The key 
amendments provide some protection for whistleblowers.\55\ For 
example, Article 6 stipulates that administrative agencies 
shall keep whistleblowers' information confidential, and 
Articles 46 and 47 provide that individuals [should] be 
punished or prosecuted for revealing information about 
whistleblowers or bringing retaliatory charges against 
reporting parties.\56\ In December 2010, the amended PRC State 
Compensation Law became effective.\57\ The amended compensation 
law expands the scope of the existing law by allowing 
negligence to go forward as a cause of action against the 
government under some circumstances.\58\ In addition, the 
amended law eliminates certain procedural loopholes making it 
easier to establish a valid claim \59\ and allows compensation 
for ``psychological injury.'' \60\
    The Commission notes that overall, Chinese citizens remain 
reluctant to bring cases against government officials using 
administrative law provisions. According to the Supreme 
People's Court's work report, the courts handled 135,679 
administrative cases, or approximately 1 percent of the 11.7 
million cases handled by local courts at various levels.\61\ 
The key reasons include a lack of confidence in the judicial 
system, historical context, and the belief that the xinfang 
system is a more appropriate channel for citizens' 
grievances.\62\

                     Citizen Petitioning (Xinfang)

    The petitioning, or xinfang (letters and visits), system 
exists to provide a channel, outside court challenges, for 
citizens to appeal government, court, and Communist Party 
decisions and present their grievances. Due to institutional 
weaknesses in the judiciary and limits on citizens' ability to 
air grievances, citizens often use petitioning as a means to 
seek redress for perceived wrongs. Common citizen petitioning 
cases involve reports of official corruption causing perceived 
injustice, alleged abuse of power, and unfair land 
compensation.
    China's Constitution and the 2005 PRC National Regulations 
on Letters and Visits provide that Chinese citizens have the 
right to petition without retribution. Xinfang bureaus are 
found throughout the Chinese bureaucracy, including offices of 
the Party, police, government, procuratorates, courts, and 
people's congresses. Individual petitioning may take the form 
of one dissatisfied citizen going to multiple xinfang bureaus 
repeatedly over the course of several months or years. 
Collective or mass petitioning may involve attempts to organize 
demonstrations, speeches, or marches of people seeking to 
present their grievances. The capital city, Beijing, where the 
central government and high-level officials are located, is an 
especially prominent destination for petitioners from all over 
China. According to a 2007 research study conducted by the 
Chinese Academy of Social Sciences, there were ``more than 
10,000 petitioners that have set up temporary residence'' in 
Beijing.\63\ However, only approximately 0.2 percent of the 
petitioners reportedly achieve resolution through 
petitioning.\64\
    Based on official information from Xinhua in March 2011, 
the xinfang system ``ferreted out a total of 2,076,000 cases of 
varying kinds of conflicts since April 2010, of which 1,643,000 
cases,'' or 79.1 percent, have been resolved.\65\ According to 
the latest Supreme People's Court's annual report, the number 
of citizen-petitioning cases in 2010 declined by 22 percent at 
local levels.\66\ The declining figures could mean, however, 
that the local officials, whose career advancement is often 
correlated with lower instances of citizen petitioning,\67\ are 
becoming more skilled at preventing petitioners from reaching 
higher level xinfang bureaus.
    In spite of Premier Wen Jiabao's show of support for 
petitioners' problems during a visit to Beijing's top 
petitioning bureau,\68\ Chinese citizens continued to face 
official reprisals, harassment, and violence. During this 
reporting year, the central government, and its extensive 
network of ``social stability preservation'' organizations 
under the leadership of the Communist Party Central Committee, 
continued to assess local government in part based on the 
number of ``abnormal petitions.'' \69\ To cope with the 
assessment, local governments continued to employ private 
security companies that sometimes resorted to extralegal 
measures to prevent petitioners from reaching the central 
government.\70\ In October 2010, Southern Metropolitan Daily 
exposed a private security company, Anyuanding, under contract 
by local governments to ``retrieve'' petitioners who attempted 
to petition in Beijing, where the central government is 
located.\71\ Anyuanding employed a variety of methods to 
prevent petitioners from making their grievances heard at the 
central level. The methods reportedly included coaxing, 
threats, abduction, detention in ``black jails'' for extended 
periods of time, and beatings.\72\ Official mistreatment of 
petitioners was especially harsh during national holidays, 
meetings held by the Party, and ``politically sensitive 
periods.'' \73\
    Maintaining social stability and containing the petitioning 
system remained a priority for central and local authorities. 
In May 2011, the Supreme People's Court issued a series of 
documents for lower level courts on how to handle petitioning. 
The documents outlined ``four musts and five systems.'' The 
four ``musts'' include: Strengthening the ideology of the 
masses, finding the problem at the source, building long-term 
capacity, and focusing on the masses. The five systems focus on 
risk assessment, notification, reception of petitioners, multi-
faceted solutions, and establishing a system of finality in 
petitioning.\74\ Key elements of the documents echoed the push 
for mediation and social stability observed throughout the 
court system during this reporting period. [See Mediation as a 
Vehicle To Maintaining Social Stability in this section.]
    During this reporting year, local governments continued to 
misapply legal regulations to punish petitioners for the sake 
of maintaining social stability. Public security officers on 
occasion detained petitioners under Article 23 of the PRC 
Public Security Administration Punishment Law.\75\ The 
provision proscribes conduct that ``disturbs social order.'' 
Specifically, Subsection 1 prohibits ``disturbing order of 
organizations, groups, enterprises, institutions, causing 
interference in their routine operations in work production, 
operation, medical care, education and research, but not yet 
causing serious harm.'' \76\ Subsection 2 prohibits 
``disturbing order in bus stations, ports, wharfs, airports, 
shopping facilities, parks, exhibition centers, and other 
public places.'' \77\ The punishment for ``disturbing social 
order'' under Article 23 ranges from warning to 15 days of 
detention. For example, public security officers from the 
Beijing Public Security Bureau's Haidian district took 
petitioner Cai Fuxian into custody for 10 days under Article 23 
on October 17, 2010, for distributing leaflets near the meeting 
place of the fifth plenum of the Communist Party's Central 
Committee. Cai was seeking redress for the alleged wrongful 
death of her father, a veteran cadre of the Party, and claimed 
that a current Central Committee member was involved.\78\
    Authorities and rural petitioners who petitioned about 
demolition of or eviction from their land and residences 
continued to confront each other, often violently.\79\ Under 
the rubric of land and hukou reform, there appeared to be 
increasing tension between some local governments' plans to 
develop rural land for urbanization and some rural residents' 
desire to stay put. According to data made available by the 
Chinese Academy of Social Sciences in December 2010, 
petitioning related to land makes up 73 percent of all 
petitioning cases.\80\ Presently, there are approximately 50 
million farmers who have lost their farmland due to urban 
development, a number projected to double in 10 years' 
time.\81\ Against this backdrop, the National People's Congress 
Standing Committee passed the PRC Administrative Coercion Law 
on June 30, 2011, to become effective on January 1, 2012.\82\ 
The law aims to establish a framework for regulating coercive 
measures government authorities can use against citizens.\83\ 
Key chapters in the law define government actions that fall 
within the scope the law,\84\ set out a standardized process by 
which forcible measures may be imposed against citizens,\85\ 
and allow citizens to sue for damages under certain 
circumstances.\86\
    Citizen petitioning and its abuses reflect two 
contradictory goals of the system: Stability preservation--
embodied by the need for conflicts to remain at the local 
level--and the central government's use of citizen petitioning 
as a check on local governments.\87\ Furthermore, the existing 
system partially reflects the limited options available to 
Chinese citizens seeking redress through the rule of law.

                   Human Rights Lawyers and Defenders

    The Commission observed increasing efforts by Chinese 
authorities to discourage, intimidate, and physically harm 
human rights lawyers and defenders who took on ``sensitive'' 
causes.\88\ Authorities continued to employ a spectrum of harsh 
measures such as stationing police personnel to monitor the 
whereabouts of rights defenders,\89\ forcing rights defenders 
to ``travel'' to remote or unknown locations,\90\ inviting them 
to ``drink tea'' with security personnel,\91\ and imprisoning 
them.\92\ In addition, the Chinese government appears to 
increasingly target human rights defenders under the color of 
law. For example, throughout this reporting year, the 
government denied annual license renewals for human rights 
lawyers,\93\ charged some human rights defenders and activists 
with crimes such as ``disturbing social order,'' \94\ and 
prohibited others from leaving the country, citing national 
security concerns under the PRC Law on the Control of the Exit 
and Entry of Citizens.\95\ [See Section II--Criminal Justice 
and Section II--Freedom of Residence and Movement for 
additional information on human rights lawyers and defenders.]

                               Legal Aid

    Chinese law grants criminal defendants the right to hire an 
attorney but guarantees pro bono legal defense only if the 
defendant is a minor, faces a possible death sentence, or is 
blind, deaf, or mute.\96\ In other cases in which defendants 
cannot afford legal representation, courts may appoint defense 
counsel or defendants may apply for legal aid, in theory, as 
early as the investigative stage of their cases.\97\
    During the 2011 reporting year, the Commission observed 
numerous reports of legal aid initiatives aimed at serving 
disadvantaged regions and improving access to justice for 
citizens. In early February 2011, the Ministry of Justice 
announced that legal aid funds nationwide increased to more 
than 1 billion yuan (US$153 million) in 2010, as the central 
government and provincial governments allocated more funds to 
establish legal aid programs in rural localities.\98\ In 
addition, the China Legal Aid Foundation--a government agency 
established to raise, manage, and allocate funding for the 
legal aid system--increased legal assistance funding with 
allocations from the public welfare lottery.\99\ The increase 
in legal aid funding comes as officials report that legal aid 
organizations across China handled record numbers of cases on 
behalf of disadvantaged applicants.\100\
    According to a February 9, 2011, China Daily article, a 
senior official with the Ministry of Justice announced that the 
government would send lawyers to assist disadvantaged groups in 
213 destitute counties in central and western China.\101\ On 
February 14, 2011, the China Daily reported that the Beijing 
Legal Aid Center announced free legal aid consultations and 
services for families of trafficked children seeking to sue 
child traffickers, in response to a high-profile government 
crackdown on child abductions.\102\ On February 25, 2011, China 
Tibet News reported that the Ministry of Finance allocated a 
special legal aid fund of 700,000 yuan (US$107,200) to assist 
migrant workers, minors, the elderly, women, and persons with 
disabilities in the Tibet Autonomous Region.\103\ In a March 1, 
2011, China Daily article, the Beijing Municipal Bureau of 
Justice announced its Legal Services in the Community project 
would place lawyers in all 2,600 communities and 3,900 villages 
within the Beijing municipality.\104\
    Despite the expansion of the legal aid system, China's 
legal aid structure faces systemic challenges in meeting the 
demands of its disadvantaged citizens and rural localities. 
According to a February 2010 article in Zhengyi Net (a Web site 
under the authority of the Supreme People's Procuratorate), a 
large number of citizens are in need of legal assistance--
including 40 million poor rural residents and 82 million 
persons with disabilities.\105\ The article notes that ``the 
staffs of legal aid agencies in China are far from meeting 
these needs.'' \106\ In February 2011, China Daily reported 
that China continues to face an imbalance in legal 
professionals, as only 5,000 of China's 200,000 lawyers work in 
the relatively poorer central and western regions.\107\ In some 
of China's underdeveloped regions, courts may have no defense 
attorneys.\108\ Furthermore, even in areas with a higher 
proportion of lawyers, citizens are often unable to manage the 
high costs associated with legal representation. According to 
one estimate, 80 to 90 percent of criminal defendants in China 
are unable to hire a lawyer.\109\ Despite increases to legal 
aid funding by the China Legal Aid Foundation, the legal aid 
system needs substantially more financial support to expand 
legal aid resources nationwide and to improve training for 
lawyers handling the challenges of legal aid cases.\110\

                                Endnotes

    \1\ ``By the End of 2010, Our Country Will Have Drawn Up 236 Active 
Laws and Over 690 Administrative Regulations'' [Dao 2010 niandi, woguo 
yi zhiding xianxing youxiao falu 236 jian, xingzheng fagui 690 
duojian], Xinhua, reprinted in China Daily, 10 March 10.
    \2\ Universal Declaration of Human Rights (UDHR), adopted and 
proclaimed by UN General Assembly resolution 217A (III) of 10 December 
48, art. 8.
    \3\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 2.
    \4\ ``Chinese Chief Justice Stresses Priority of Mediation Over 
Court,'' Xinhua, 30 May 11; ``China Issues Guidelines for Resolving 
Social Conflicts,'' Xinhua, 4 May 11.
    \5\ PRC People's Mediation Law [Zhonghua renmin gongheguo renmin 
tiaojie fa], issued 28 August 10, effective 1 January 11; Supreme 
People's Court, Several Provisions Regarding Judicial Affirmation 
Procedures for People's Mediation Agreements [Zuigao renmin fayuan 
guanyu renmin tiaojie xieyi sifa queren chengxude ruogan guiding], 
issued 23 March 11; ``New People's Mediation Law Takes Effect,'' 
Congressional-Executive Commission on China, 10 February 11.
    \6\ PRC People's Mediation Law [Zhonghua renmin gongheguo renmin 
tiaojie fa], issued 28 August 10, effective 1 January 11, art. 1.
    \7\ Ibid., arts. 1, 7-12.
    \8\ Ibid., arts. 4, 33.
    \9\ Opinion on Questions Regarding Establishing and Improving 
Enforcement [of Judicial Decisions) by Multiple Organizations [Guanyu 
jianli he wanshan zhixing liandong jizhi ruogan wentide yijian], issued 
7 July 10.
    \10\ Ibid. For example, Chapter 8 calls on the Ministry of Civil 
Affairs to give special consideration to those seeking enforcement who 
are in dire conditions.
    \11\ Zhu Zhe and Lan Tian, ``Mediation Draft Law Could Ease 
Tension,'' China Daily, 23 June 10. According to the article, Minister 
of Justice Wu Aiying told the National People's Congress Standing 
Committee that the ``mediation should be the fire line of defence to 
maintain social stability and promote harmony.''
    \12\ Several Opinions Regarding Further Strengthening the Basic 
People's Courts Under New Circumstances [Guanyu xinxingshi xia jinyibu 
jiaqiang renmin fayuan jiceng jichu jianshede ruogan yijian], issued 28 
January 11, secs. 13, 14.
    \13\ Zhu Xudong, ``Basic-Level Court Judge Chen Yanping's Work 
Method Is Worth Spreading Throughout the Country'' [Jiceng faguan chen 
yanping gongzuofa zai quanguo huo tuiguang], News of the Communist 
Party of China, 23 February 11; Carl F. Minzner, ``China's Turn Against 
the Law,'' Washington University in St. Louis Legal Studies Research 
Paper, No. 11-03-01 (2011), 24.
    \14\ Ma Shoumin, ``Prioritizing Mediation Promotes Societal Harmony 
and Stability'' [Tiaojie youxian licu shehui hexie wending], People's 
Court Daily, 15 March 11.
    \15\ Carl F. Minzner, ``China's Turn Against the Law,'' Washington 
University in St. Louis Legal Studies Research Paper, No. 11-03-01 
(2011); Stanley Lubman, ``Civil Litigation Being Quietly `Harmonized,' 
'' Wall Street Journal, 31 May 11; Willy Lam, ``Beijing Tightens 
Control Over Courts,'' Asia Times, 25 June 11.
    \16\ ``Open Letter From the Tiananmen Mothers,'' reprinted in Human 
Rights in China, 30 May 11; Willy Lam, ``Beijing Tightens Control Over 
Courts,'' Asia Times, 25 June 11.
    \17\ Ibid.
    \18\ Carl F. Minzner, ``China's Turn Against the Law,'' Washington 
University in St. Louis Legal Studies Research Paper, No. 11-03-01 
(2011), 31-37.
    \19\ Ibid., 38-39.
    \20\ Li Gang, ``Court Supervised `Mediation' Is Easy, Enforcement 
Is Hard'' [Fayuan ``tiaojie'' rongyi zhixing nan], Beijing Youth Daily, 
7 July 10. According to this article, based on data released by a court 
in Beijing, agreements in nearly half of the disputes settled through 
mediation are not honored by the parties, contributing to what the 
paper characterized as the ``strange phenomenon'' of too much mediation 
and too little enforcement. ``We Ought To Pay Attention to Both 
Mediation and Enforcement'' [Tiaojielu yu tiaojie zidong luxinglu 
yingdang bingzhong], People's Court Daily, reprinted in Legal Daily, 14 
April 11; Carl F. Minzner, ``China's Turn Against the Law,'' Washington 
University in St. Louis Legal Studies Research Paper, No. 11-03-01 
(2011), 42-43. Minzner postulates that as courts began to aggressively 
pressure parties to settle, parties increasingly had second thoughts 
after settlement, further eroding voluntary enforcement rates for 
mediated agreements.
    \21\ Supreme People's Court, Model Judicial Behavior Code [Faguan 
xingwei guifan], issued 6 December 11.
    \22\ Supreme People's Court, Basic Code of Professional Conduct for 
Judges [Zhonghua renmin gongheguo faguan zhiye daode jiben zhunze], 
issued 6 December 11.
    \23\ Supreme People's Court, Model Judicial Behavior Code [Faguan 
xingwei guifan], issued 6 December 11, arts. 81, 82, 83-activities 
outside of work; 84-interaction with media; 85-interpersonal conflict 
with others; 89-overseas travel.
    \24\ Supreme People's Court, Basic Code of Professional Conduct for 
Judges [Zhonghua renmin gongheguo faguan zhiye daode jiben zhunze], 
issued 6 December 11. The five principles are: Guaranteeing loyalty to 
the administration of justice, ensuring judicial fairness, ensuring 
judicial honesty, striving to achieve justice for the people, and 
defending the image of the judiciary.
    \25\ Supreme People's Court, Model Judicial Behavior Code [Faguan 
xingwei guifan], issued 6 December 11, art. 1. Specifically, Article 1 
requires judges to be loyal to the Party and contains new language on 
``maintaining the same line of thought and action as the Party's 
Central Committee,'' and ``to not go against the core policies of the 
Party and the country, in words and deeds''; Supreme People's Court, 
Basic Code of Professional Conduct for Judges [Zhonghua renmin 
gongheguo faguan zhiye daode jiben zhunze], issued 6 December 11, arts. 
4-7. Specifically, these articles contain new references requiring 
``loyalty to the Party, loyalty to country, and loyalty to the people 
in order to build and defend a socialist system with Chinese 
characteristics,'' ``abide by political discipline, guard the country's 
secrets and trial work secrets, and not engage in activities that are 
detrimental to the country's interests and judicial authority, and not 
speak or publish speeches that are detrimental to the country's 
interests and judicial authority.''
    \26\ Supreme People's Court, Trial Implementation of Provisions 
Regarding Professional Avoidance of Trial Judges and Court Leadership 
When a Spouse or Child Practices as a Lawyer [Guanyu dui peiou zinu 
congshi lushi zhiyede fayuan lingdao ganbu he shenpan zhixing gangwei 
faguan shixing renzhi huibi de guiding (shixing)], issued 10 February 
11.
    \27\ Supreme People's Court, Provisions Regarding the Prevention of 
Interference With Casework by Internal Court Personnel [Guanyu zai 
shenpan gongzuozhong fangzhi fayuan neibu renyuan ganrao banande ruogan 
guiding], 15 February 11.
    \28\ Ibid., arts. 1-5.
    \29\ Supreme People's Court, Opinion Concerning the Standardization 
of Trial Work Between Higher Level and Lower Level Courts [Guanyu 
guifan shangxiaji renmin fayuan shenpan yewu guanxide ruogan yijian], 
issued 28 December 10. For a summary of the Opinion, also see ``Recent 
Developments in Judicial Reform,'' Congressional-Executive Commission 
on China, 31 March 11.
    \30\ Supreme People's Court, Opinion Concerning the Standardization 
of Trial Work Between Higher Level and Lower Level Courts [Guanyu 
guifan shangxiaji renmin fayuan shenpan yewu guanxide ruogan yijian], 
issued 28 December 10, art. 6.
    \31\ Supreme People's Court, Regulations Regarding Guiding Cases 
[Zuigao renmin fayuan guanyu anli zhidao gongzuode guiding], issued 26 
November 10.
    \32\ Ibid., arts. 1, 2.
    \33\ ``Supreme People's Court Steadily Pushes Forward Guiding Cases 
With Chinese Characteristics'' [Zuigaofa wenbu tuijin zhongguo tese 
anli zhidao zhidu], Legal Daily, 17 May 11.
    \34\ An Jie, ``Hu Yunteng Explains the Regulations Regarding 
Guiding Cases'' [Hu yunteng jiedu guanyu anli zhidao gongzuode 
guiding], Dongfang Fayan, 11 January 11.
    \35\ Ibid. In the same article, the director of the research 
department of the Supreme People's Court suggests that the lower courts 
should abide by the guiding cases when adjudicating cases that are 
similarly situated. If the judge does not follow the guiding cases, he 
should articulate a compelling reason.
    \36\ Supreme People's Court, Guiding Opinion on Sentencing in 
Peoples' Courts (Trial Version) [Renmin fayuan liangxing zhidao yijian 
(shixing)], issued 13 September 10, effective 1 October 10.
    \37\ Ibid., chap. 4.
    \38\ See, e.g., Randall Peerenboom, China's Long March Toward Rule 
of Law (Cambridge, Cambridge University Press, 2002), 295-98. 
Peerenboom discusses corruption in the context of judges' technical 
competence and judicial independence. See also Ling Li, ``The 
`Production of Corruption' in China's Courts,'' U.S.-Asia Law Institute 
Working Paper Series, 5 July 2011. Li postulates that corruption within 
the judiciary is a systemic problem.
    \39\ ``Corrupt Chinese Judges To Face Harsh Punishments: SPC Vice 
President,'' Xinhua, reprinted in China Human Rights, 29 December 10. 
Details about graft cases are not known.
    \40\ ``Making Fundamental Improvements, Guaranteeing a Fair and 
Just Judiciary'' [Zhuazhu genben qianghua cuoshi, baozhang gongzheng 
lianjie sifa], People's Court Daily, reprinted in Legal Daily, 28 
February 11. The article is a summary of Supreme People's Court's anti-
corruption efforts in 2010.
    \41\ Mimi Lau, ``Bribing Judges Is Almost a Sure Thing,'' South 
China Morning Post, 21 May 11.
    \42\ Chen Xianfeng and Wang Kailei, ``Following the Trail of a 
Corrupt Court in Guangdong Province, Nine Judges Conspired With Others 
for Profit'' [Guangdong zhanjiang fayuan fubai wo'an zhuizong: jiuming 
faguan yuren hemou huoli], Communist Party of China News, 2 May 11.
    \43\ Shao Ming, ``Foshan Intermediate People's Court Responds to 
Judges Accepting Bribes, `Sentences to Three, Postpones for Four' '' 
[Foshan zhongyuan huiying faguan shouhui ``pansan huansi''], Southern 
Metropolis Daily, 17 June 11.
    \44\ Supreme People's Court, ``Work Report of the Supreme People's 
Court'' [Zuigao renmin fayuan gongzuo baogao], reprinted in People's 
Daily, 20 March 11, subsection 5; Supreme People's Court, ``Wang 
shengjun: The Work of the People's Courts Still Has Five Problem 
Areas'' [Wang shengjun: renmin fayuan gongzuozhong haicunzai wuge 
fangmiande wenti he kunnan], 11 March 11.
    \45\ Ling Li, ``The `Production of Corruption' in China's Courts,'' 
U.S.-Asia Law Institute Working Paper Series, 5 July 2011, 36. Li 
argues reform efforts ``have seldom touched upon the decision-making 
mechanism, through which corruption in the judiciary has become 
institutionalized.''
    \46\ State Council Information Office, ``China's Efforts To Combat 
Corruption and Build a Clean Government,'' 29 December 10.
    \47\ ``Strengthen Internal Supervision of the Courts, SPC Promotes 
Judicial Inspection Tour'' [Jiaqiang fayuan neibu jiandu, zuigao fayuan 
quanmian tuixing sifa xuncha zhidu], People's Court Daily, reprinted in 
Xinhua, 21 October 10. The other goals include implementing Party 
ideology, shaping ideas regarding a clean government, and resolving 
conflicts.
    \48\ Supreme People's Court, Provisions Regarding the ``Five 
Prohibitions'' [Guanyu wuge yanjinde guiding], issued 8 January 09.
    \49\ Ibid.
    \50\ ``Tip-Off Websites Launched To Root Out Corruption in China's 
Legal System,'' Xinhua, 9 February 11.
    \51\ PRC Constitution, adopted 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, arts. 62, 67,128.
    \52\ PRC Administrative Procedure Law [Zhonghua renmin gongheguo 
xingzheng susong fa], issued 4 April 89, effective 1 October 90, art. 
12. The law is also known as the Administrative Litigation Law.
    \53\ National People's Congress, Explanation Regarding the 
Administrative Reconsideration Law [Zhonghua renmin gongheguo xingzheng 
fuyi fa shiyi], 18 October 00.
    \54\ PRC Administrative Supervision Law [Zhonghua renmin gongheguo 
xingzheng jiancha fa], issued 9 May 97, amended 25 June 10.
    \55\ Ibid., arts. 6, 46, 47.
    \56\ Ibid.
    \57\ PRC State Compensation Law [Zhonghua renmin gongheguo guojia 
peichang fa], issued 12 May 94, amended 29 April 10, effective 1 
December 10.
    \58\ Ibid., art. 2. Article 2 states, ``If a state organization or 
a member of its personnel, when exercising functions and powers in 
violation of the law, infringes upon the lawful rights and interests of 
a citizen., and causes damages-the aggrieved person shall have the 
right to recover damages from the state in accordance with the law.'' 
For a further discussion about the implication of the amended State 
Compensation Law, including negligence, see Stanley Lubman, ``A Step 
Forward: New Law Expands Government Liability,'' Wall Street Journal, 
13 January 11.
    \59\ PRC State Compensation Law [Zhonghua renmin gongheguo guojia 
peichang fa], issued 12 May 94, amended 29 April 10, effective 1 
December 10, art. 35. For a further discussion about the implication of 
the amended State Compensation Law, including efforts to eliminate 
procedural loopholes, see Stanley Lubman, ``A Step Forward: New Law 
Expands Government Liability,'' Wall Street Journal, 13 January 11.
    \60\ PRC State Compensation Law [Zhonghua renmin gongheguo guojia 
peichang fa], issued 12 May 94, amended 29 April 10, effective 1 
December 10, arts. 9-12. For a further discussion about the implication 
of the amended State Compensation Law, including the inclusion of 
psychological injuries, see Stanley Lubman, ``A Step Forward: New Law 
Expands Government Liability,'' Wall Street Journal, 13 January 11.
    \61\ ``Highlights of Work Report of Supreme People's Court,'' 
Xinhua, 11 March 11.
    \62\ See Carl F. Minzner, ``Xinfang: An Alternative to Formal 
Chinese Legal Institutions,'' Stanford Journal of International Law, 
No. 42 (2006), 118-20.
    \63\ Zhang Han, ``Pressuring Petitioners,'' Global Times, 27 
October 10.
    \64\ Ibid.
    \65\ ``Our Country's Petition System Is Full of Innovation and 
Shows Good Results, Achieving a Positive Outcome'' [Woguo xinfang 
xitong chuangxian zhengyou huodong yijing qude jieduanxing chengguo], 
Xinhua, reprinted in Legal Daily, 29 March 11.
    \66\ Supreme People's Court, ``Annual Work Report (2010)'' [Renmin 
fayuan gongzuo niandu baogao (2010)], May 2011, 33.
    \67\ Human Rights Watch, ``An Alleyway in Hell,'' November 2009, 3, 
7-19; Xu Kai and Li Wei'ao, ``The Machinery of Maintaining Social 
Stability'' [Weiwen jiqi], Caijing, 6 June 11.
    \68\ Tania Branigan, ``Wen Jiabao Visits China's Central Complaints 
Department,'' Guardian, 26 January 11.
    \69\ Xu Kai and Li Wei'ao, ``The Machinery of Maintaining Social 
Stability'' [Weiwen jiqi], Caijing, 6 June 11.
    \70\ Ibid.; Long Zhi, ``Anyuanding: Investigation Into Beijing 
`Black Jail' Retrievers (Part I)'' [Anyuanding: beijing jiefang ``hei 
jianyu'' diaocha (shang pian)], Southern Metropolitan Daily, 24 
September 10; See also Zhan Han, ``Pressuring Petitioners,'' Global 
Times, 27 October 10; Liu Chang, ``Controversy Over `Black Jails' 
Continues,'' Global Times, 4 May 11; ``Woman Detained in a Black Jail 
After Coming to Beijing To Handle Affairs'' [Laijing banshi nu beiguan 
heijianyu], Beijing News, 2 August 11.
    \71\ Long Zhi, ``Anyuanding: Investigation Into Beijing `Black 
Jail' Retrievers (Part I)'' [Anyuanding: beijing jiefang ``hei jianyu'' 
diaocha], Southern Metropolitan Daily, 24 September 10. See also Zhan 
Han, ``Pressuring Petitioners,'' Global Times, 27 October 10.
    \72\ Zhan Han, ``Pressuring Petitioners,'' Global Times, 27 October 
10.
    \73\ Ibid.; Xu Kai and Li Wei'ao, ``The Machinery of Maintaining 
Social Stability'' [Weiwen jiqi], Caijing, 6 June 11.
    \74\ ``Supreme People's Court Issues the Following Documents 
Regarding Petitioning Work'' [Zuigao renmin fayuan jiushe su xinfang 
gongzuo xiafa xilie wenjian], People's Court Daily, 16 May 11.
    \75\ PRC Public Security Administration Punishment Law [Zhonghua 
renmin gongheguo zhi'an guanli chufa fa], issued 5 September 86, 
amended 12 May 94, 28 August 05, effective 1 March 06, art. 23.
    \76\ Ibid.
    \77\ Ibid.
    \78\ ``Female Petitioner Cai Fuxian From Guizhou Is Detained for 
Leafletting and Later Released'' [Guizhou lupanshui nufangmin cai 
fuxian sa chuandan bei zhuahou shifang], Boxun, 29 October 10.
    \79\ ``Land Disputes Worst Problem in Rural Areas,'' Agence France-
Presse, 16 December 10; Choi Chi-yu, ``2,000 Battle Police in Yunna,'' 
South China Morning Post, 31 March 11; ``Six Hundred Policemen in 
Fuzhou Used Tear Gas To Force Expropriation of Property, Violent 
Conflict Results in Many Villagers Beaten and Detained'' [Fuzhou liubai 
jingshi cuileidan qiangzhengdi-bao chongtu duowei cunmin beida 
beizhua], Radio Free Asia, 8 April 11; ``Petitioners Attacked and 
Beaten,'' Radio Free Asia, 22 March 11; Alice Yan, ``Demolition 
Violence Stirs Fury on the Mainland,'' South China Morning Post, 6 
November 10; ``Police Detain Land Protesters,'' Radio Free Asia, 20 
October 10.
    \80\ Zhang Huailei, ``The Urgency of Building a Social Benefit Net 
for Farmers Who Have Lost Land'' [Wei shidi nongmin jianli shehui 
baozhang tixide jinpoxing], Social Sciences in China Press, Vol. 148, 
16 December 10.
    \81\ Ibid.
    \82\ PRC Administrative Coercion Law [Zhonghua renmin gonghe guo 
xingzheng qiangzhi fa], enacted 30 June 11, effective 1 January 12.
    \83\ Ibid., especially chaps. 2-4.
    \84\ Ibid., chap. 2.
    \85\ Ibid., chaps. 3, 4.
    \86\ Ibid., art. 8.
    \87\ Xu Kai and Li Wei'ao, ``The Machinery of Maintaining Social 
Stability'' [Weiwen jiqi], Caijing, 6 June 11.
    \88\ Edward Wong, ``Human Rights Advocates Vanish as China 
Intensifies Crackdown,'' New York Times, 11 March 11; Chinese Human 
Rights Defenders, ``A Quiet Crackdown, Yet Likely the Harshest in 
Recent Years,'' 25 February 11; Human Rights in China, ``Heavy Charges 
for Chinese Activists; HRIC Urges Support From International 
Community,'' 25 February 11; Andrew Quinn, ``U.S. Urges China To Halt 
Detention of Activists,'' Reuters, 8 March 11.
    \89\ See, e.g., Minnie Chan, ``Security Even Tighter After 
`Jasmine' Call,'' South China Morning Post, 2 March 11; Chinese Human 
Rights Defenders, ``Individuals Affected by the Crackdown Following 
Call for `Jasmine Revolution,' '' 30 May 11; Human Rights in China, 
``Dozens Put Under House Arrest as Chinese Authorities Intensify 
Crackdown Following Nobel Peace Prize Announcement,'' 28 October 10; 
Chris Buckley, ``China Dissidents Under Lockdown as Nobel Tensions 
Linger,'' Reuters, 29 October 10; Chinese Human Rights Defenders, 
``Beijing Activists Li Fangping, Li Zhiying Placed Under Soft 
Detention'' [Beijing weiquan renshi li fangping, li zhiying zao 
ruanjin], 26 October 10.
    \90\ See, e.g., Chinese Human Rights Defenders, ``China Human 
Rights Briefing Weekly December 8-13, 2010'' 15 December 10; Gillian 
Wong, ``China Cracks Down, Many Activists Missing,'' Associated Press, 
21 March 11.
    \91\ See, e.g., ``Mainland Student in Hong Kong Asked To `Drink 
Tea' by Mainland Liaison Office After Participating in Rights Defense 
Activities'' [Zai gang neidisheng weiquan zhong lianban ``qing 
yincha''], Sina, 1 June 11; Chinese Human Rights Defenders, ``China 
Human Rights Briefing Weekly December 8-13, 2010'' 15 December 10; 
``Caijing Magazine Journalist Zhang Jialong Missing After Being Asked 
to `Have Tea,' May Be Related to Ai Weiwei Case'' [Caijing zazhi jizhe 
zhang jialong bei ``hecha'' shizong huo yu ai weiwei an you guan], 
Radio France Internationale, 2 May 11; ``The Chinese Government Charges 
Three Internet Dissidents With the Crime of `Incitement To Subvert 
State Authority' '' [Zhongguo zhengfu dui sanming wanluo yiyirenshi 
kong yi `biandong dianfu guojia zhengquan' zuiming], Radio Free Asia, 3 
April 11.
    \92\ See, e.g., Andrew Jacobs, ``Chinese Democracy Advocate Is 
Sentenced to 10 Years,'' New York Times, 25 March 11.
    \93\ ``Lawyers' Licenses Withheld,'' Radio Free Asia, 18 July 10; 
``Authorities Deny Human Rights Lawyers Professional License 
Renewals,'' Congressional-Executive Commission on China, 10 December 
10.
    \94\ Jonathan Shieber, ``A Joke on Twitter, a Year in Labor Camp? 
'' Wall Street Journal, 19 November 10; Stanley Lubman, ``China's War 
on Dissent and Activism,'' Wall Street Journal, 24 December 10; ``China 
Court Jails Tainted-Milk Activist, Amnesty Says,'' Bloomberg News, 10 
November 10.
    \95\ Peter Simpson, ``China Bans Rights Lawyers From Travel China 
[sic],'' Voice of America, 9 November 10; Cara Anna, ``Lawyers: China 
Blocked US Visit, Citing `Security,' '' Associated Press, reprinted in 
Yahoo!, 30 October 10.
    \96\ PRC Criminal Procedure Law, enacted 1 July 79, amended 17 
March 96, effective 1 January 97, arts. 33, 34.
    \97\ Provisions on Criminal Litigation [Guanyu xinggshi susong falu 
yuanzhu gongzuode guiding], issued 28 September 05, effective 1 
December 05, art. 4.
    \98\ ``China's Legal Aid Funds Surge in 2010,'' Xinhua, 2 February 
11; Cui Qingxin, ``China Surpasses One Billion Yuan in Legal Aid 
Support Last Year'' [Qunian woguo falu yuanzhu jingfei zonge chaoguo 10 
yi], Xinhua, 3 February 11.
    \99\ Ibid.
    \100\ Cui Qingxin, ``Last Year, More Than 70 Million Legal Aid 
Cases Handled; 40 Percent on Behalf of Migrant Workers'' [Qunian 
gongban 70 duo wanjian falu yuanzhu anjian jin sicheng wei nongmingong 
banli], Xinhua, 4 February 11.
    \101\ Zhang Yan and Wang Yan, ``213 Counties Will Receive Free 
Legal Aid,'' China Daily, 9 February 11.
    \102\ Li Jiabao, ``Parents of Child Beggars Offered Legal Aid,'' 
China Daily, 14 February 11.
    \103\ ``700,000 Yuan Earmarked for Tibet's Legal Aid,'' China Tibet 
News, reprinted in China Daily, 25 February 11.
    \104\ Liu Yujie, ``China Daily: Communities Get Free Legal Aid,'' 
China Daily, 1 March 11.
    \105\ Cao Hongbing, ``Requirements and Ideas for Improving Legal 
Aid'' [Wanshan woguo falu yuanzhu de biyaoxing he silu], People's 
Daily, 12 February 10.
    \106\ Ibid.
    \107\ Zhang Yan and Wang Yan, ``213 Counties Will Receive Free 
Legal Aid,'' China Daily, 9 February 11.
    \108\ Yuan Yuan, ``Aiding in Defense,'' Beijing Review, 6 February 
11.
    \109\ Ibid.
    \110\ Ibid.

                                 <all>

</pre></body></html>
